APPENDIX TABLE OF CONTENTS
Opinions and Orders
Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit
(September 15, 2020)...............................

la

Memorandum Decision and Order of the United
States District Court for the District of Idaho
(April 23, 2019).... ............................................... 4a
Memorandum Decision and Order of the United
States District Court for the District of Idaho
(January 3, 2019)................................................ 8a
Regulatory Provisions
Regulatory Provisions Involved

... 16a

App.la
MEMORANDUM* OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(SEPTEMBER 15, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BRUCE A. NORVELL,
Plain tiff-Appellan t,
v.

SECRETARY OF THE TREASURY;
UNITED STATES INTERNAL
REVENUE SERVICE,
Defendan ts-Appellees.
No. 19-35156
D.C. No. l:18-cv-00251-BLW
Appeal from the United States District Court
for the District of Idaho B. Lynn Winmill,
District Judge, Presiding
Submitted September 8, 2020**

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App.2a
Before: TASHIMA, SILVERMAN,
and OWENS, Circuit Judges.
Bruce A. Norvell appeals pro se from the district
court’s judgment dismissing for lack of subject matter
jurisdiction his action for declaratory and injunctive
relief arising from his submissions to the Internal
Revenue Service’s Whistleblower Office (“IRS”). We
have jurisdiction under 28 U.S.C. § 1291. We review
de novo a dismissal under Federal Rule of Civil Pro­
cedure 12(b)(1). Rattlesnake Coal. v. US. ERA, 509
F.3d 1095, 1100 (9th Cir. 2007). We affirm.
The district court properly dismissed Norvell’s
action arising from 26 U.S.C. § 7623 because Norvell
failed to show that the Administrative Procedure Act’s
(“APA”) waiver of sovereign immunity applies to his
claims. See Inti Bhd. Of Teamsters v. US. Dep’t of
Transp., 861 F.3d 944, 952 (9th Cir. 2017) (“Section
704 of the APA provides for judicial review of ‘[a]gency
action made reviewable by statute and final agency
action for which there is no other adequate remedy in
a court.’” (quoting 5 U.S.C. § 704)); 26 U.S.C. § 7623
(b)(4) (IRS’s determination regarding an award under
§ 7623(b)(1), (2), or (3) may be appealed to the Tax
Court, which has jurisdiction with respect to such
matter). However, a dismissal for lack of subject matter
jurisdiction should be without prejudice. See Kelly v.
Fleetwood Enters., Inc., 377 F.3d 1034, 1036 (9th Cir.
2004). We affirm the dismissal and instruct the district
court to amend the judgment to reflect that the
dismissal of the action is without prejudice.
We reject as without merit Norvell’s contention
that the IRS’s disposition of his March 21, 2018 appli-

App.3a
cation was not a “determination” within the meaning
of § 7623(b)(4).
We do not consider matters not specifically and
distinctly raised and argued in the opening brief, or
arguments and allegations raised for the first time
on appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2
(9th Cir. 2009).
AFFIRMED with instructions to amend the
judgment.

App.4a
MEMORANDUM DECISION AND ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
(APRIL 23, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
BRUCE NORVELL,
Plaintiff,
v.

SECRETARY OF THE TREASURY;
INTERNAL REVENUE SERVICE,
Defendants.
Case
No. l:18-cv-251-BLW
l
Before: B. Lynn WINMILL,
U.S. District Court Judge.
INTRODUCTION
The Court has before it a motion to alter or amend
filed by plaintiff Norvell. The motion is fully briefed
and at issue. For the reasons explained below, the
Court will deny the motion.
ANALYSIS
Norvell filed this action alleging the IRS failed
to consider his application for a whistleblower award

App.5a
as required by 26 U.S.C: § 7623(b). His complaint
alleges that the IRS’s failure to act violates the
requirements of the Administrative Procedures Act
(APA). 5 U.S.C. §§ 701 et seq.
The IRS responded with a motion to dismiss
arguing that Norvell had a remedy in the Tax Court
that precluded suit under the APA. The Court agreed
and granted the motion to dismiss. See Memorandum
Decision (Dkt. No. ll).
Norvell now argues in his motion to alter or
amend that the Tax Court has no jurisdiction to
consider his appeal because the IRS has never made
a “determination” on the second of two claims he
filed to obtain an award for being a whistleblower.
Because the Tax Court has no jurisdiction, Norvell
argues, this Court erred in finding that an appeal to
the Tax Court precluded suit under the APA here.
Norvell’s first claim for a whistleblower awardreferred to as 211 Claim I—was dated April 10, 2017.
The IRS denied that claim on August 16, 2017. See
Final Decision (Dkt. No. 1-6). There is no dispute
that the IRS denial of 211 Claim I was a determination
that could be appealed to the Tax Court.
On February 12, 20IS—about six months alter the
denial of his 211 Claim I Norvell filed a second claim
containing new material. This second claim is referred
to as 211 Claim II. About a month later—on March
13, 2018—the IRS sent Norvell a letter stating as
follows: “We received your request for reconsidera­
tion dated February 12, 2018. Your claim was previ­
ously rejected. A copy of that decision is enclosed.” Id
Norvell responded on March 21, 2018, informing
the IRS that his second claim—211 Claim II—was not

App.6a
a request for reconsideration but a separate claim
that contained new material not found in his first
claim. He explained to the IRS in detail how the two
claims were separate, and asked them to assign a
separate claim number to 211 Claim II, and evaluate
it separately from 211 Claim I.
Despite his efforts to cast it in a different light,
Norvell’s letter was a request for reconsideration. The
IRS treated it as such. The IRS responded on April 5,
2018, with a letter to Norvell that rejected his request
for a reconsideration: “We received your request for
reconsideration dated March 21 2018. Your claim was
previously rejected. A copy of that decision is enclosed.”
This language, Norvell argues, shows that that the
IRS never actually considered his second claim but
merely referred him back to the rejection of his first
claim. He argues that because he has never received
a determination of his second claim, he has nothing
to appeal to the Tax Court and should be allowed to
bring this lawsuit under the APA.
The Court disagrees; Norwell did get a determi­
nation from the IRS on his second claim. In the IRS
letter of April 5, 2018, the IRS rejects Norvell’s argu­
ment that the claims are separate and treats both
claims the same, rejecting the second claim on the
same grounds as the first. That may be a clear error,
according to Norvell, hut it is nevertheless a rejection
that treats both claims the same. Rejections of whistle­
blower claims are defined as “determinations” in the
implementing regulations. See 26 C.F.R. § 301.76233(c)(7). The IRS’s rejection of Norvell’s second claim
constitutes the required determination that Norvell
needs to appeal to the Tax Court. His motion to alter
or amend must be denied.

App.7a
ORDER
In accordance with the Memorandum Decision
set forth above,
NOW THEREFORE IT IS HEREBY ORDERED,
that the motion to alter or amend (docket no. 15) is
DENIED.
/s/ Lvnn Winmill_______
U.S. District Court Judge
Dated: April 23, 2019

App.8a
MEMORANDUM DECISION AND ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
(JANUARY 3, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
BRUCE NORVELL,
Plaintiff,
v.

SECRETARY OF THE TREASURY;
INTERNAL REVENUE SERVICE,
Defendants.
Case No. l:18-cv-251-BLW
Before: B. Lynn WINMILL,
U.S. District Court Judge.
INTRODUCTION
Before the Court is Defendants’ Motion to Dismiss
for lack of subject matter jurisdiction based on Federal
Rule of Civil Procedure 12(b)(1). The motion is fully
briefed and at issue. For the reasons set forth below,
the Court will grant the motion.

App.9a
BACKGROUND
Defendants move for dismissal on the grounds
that plaintiff Bruce Norvell’s complaint fails to establish
the subject matter jurisdiction of this Court. Fed R.
Civ. P 12(b)(1). Mr. Norvell filed his Complaint on June
6, 2018, alleging the IRS did not consider his February
2018 Form 211 “Application for Award for Original
Information” as required by the IRS whistleblower
award statute, 26 U.S.C. § 7623(b). Plaintiff alleges
the IRS’s failure to act on his Form 211 pursuant to
§ 7623(b) violates the requirements of the Administra­
tive Procedures Act (APA), 5 U.S.C. §§ 701 et seq.
Section 7623 created the Whistleblower Office
within the IRS to administer the payment of awards
to whistleblowers. 26 U.S.C. § 7623. Under this Section
the IRS may proceed with administrative or judicial
action based on information brought to light by a
whistleblower’s Form 211 application. 26 U.S.C. § 7623
(b)(l). If the IRS proceeds with the enforcement action,
it may award a claimant at least 15 percent, but not
more than 30 percent, of the collected proceeds or
from settlement with the taxpayer. Id. Upon receiving
a Form 211, the Whistleblower Office makes a final
decision regarding a claim under § 7623(b) and must
either communicate denial of the claim, including the
basis for the denial, or follow the procedures for
granting an award. See id; Treas. Reg. § 301.76233(c)(l)-(6) The claimant may appeal the Whistleblower
Office’s final administrative decision to the United
States Tax Court within thirty days. See 26 U.S.C.
§ 7623(b)(4). A claimant can appeal any Tax Court
decision to the applicable United States Circuit Court
of Appeals. See 26 U.S.C. § 7482(a).

App.lOa
Mr. Norvell filed separate IRS Form 211s in 2017
and 2018, asserting that the San Francisco Company
Airbnb, Inc. had failed to accurately report its taxes
between 2009 and 2017. Dkt. 1, at 7. First, on April 10,
2017, Mr. Norvell filed a Form 211 claiming Airbnb
had failed to report non-employee compensation as
required on Form 1099-MISC for the years 2009-2016.
Dkt. 1-4, at 1-2. The IRS Whistleblower Office rejected
Mr. Norvell’s 2017 Form 211 claim on August 16, 2017.
Dkt. 1-6, at 1. Mr. Norvell then filed a second Form 211
on February 2, 2018, alleging the same pattern of
historical conduct. Dkt. 1, at 7; Dkt. 1-5, at 1-2. The
February 2018 Form 211 also added allegations related
to Airbnb’s 2017 tax filings and its failure to report 2015
and 2016 payments to hosts on either Form 1099-MISC
or 1099-K. Id. The IRS Whistleblower Office rejected
Mr. Norvell’s February 2018 Form 211 on March 13,
2018. Dkt. 1, at 7-8; Dkt. 1-6. The Whistleblower
Office’s 2018 denial noted that “[the 2017 claim] was
previously rejected,” and attached a copy of the 2017
denial to its notice. Dkt. 1-6.
Plaintiff alleges that he was injured by the IRS
“refusing to consider my 2/2/2018 claim.” Dkt. 1, at 8.
Specifically, Plaintiff asserts the IRS failed to consider
the February 2018 Form 211 at all, and instead treated
it as a request for reconsideration of his 2017 Form 211.
Id. The Parties agree that IRS regulations require the
Whistleblower Office to respond to each Form 211
in the event of a denial. See Dkt. 1, at 8-9; Dkt. 5, at
5; see also 26 U.S.C. § 7623(b). Mr. Norvell asserts
the alleged “refusal to consider” his 2018 Form 211
amounts to either “unlawfully withheld or unreason­
ably delayed” agency action, or, in the alternative, an
“arbitrary, capricious, 0 abuse of discretion, not in

App.lla
accordance with law, or without observation of proce­
dures as required by law” in violation of the APA, 5
U.S.C. §§ 706(l), (2)(A-D). Dkt. 1, at 9-10. At issue in
the instant motion to dismiss is whether this Court
has jurisdiction to hear Plaintiffs APA challenge to
the IRS Whistleblower Office’s alleged inaction under
26 U.S.C. § 7623(b).
LEGAL STANDARD
A defendant may move to dismiss a complaint for
lack of subject matter jurisdiction under Rule 12(b)(1)
in one of two ways. See Leite v. Crane Co., 749 F.3d
1117, 1121 (9th Cir. 2014). The first is known as a
“facial” attack, and it accepts the truth of the plaintiffs
allegations but asserts that they are insufficient on
their face to invoke federal jurisdiction. Id. The second
method is known as a “factual” attack, and it does
not assume the truth of plaintiffs allegations but
instead challenges them by introducing extrinsic
evidence, requiring the plaintiff to support his juris­
dictional allegations with “competent proof.” Id. Here,
Defendants bring a “facial” attack against Plaintiffs
Complaint for lack of subject matter jurisdiction. See
Dkt. 5. As such, the Court must consider the factual
allegations of the complaint to be true and determine
whether they establish subject matter jurisdiction.
Leite, 749 F.3d at 1121. In the case of a facial attack,
the motion to dismiss is granted only if the nonmoving
party fails to allege an element necessary for subject
matter jurisdiction. Id.
When bringing a claim against a federal govern­
ment agency, a Plaintiff must show the government
has waived sovereign immunity with respect to that
agency’s action or inaction to establish subject matter

App.l2a
jurisdiction. See Lane v. Pena, 518 U.S. 187, 192,
(1996). The United States is “immune from suit in
state or federal court except to the extent that Congress
has expressly waived such sovereign immunity.” Tritz v.
U.S. PostalServ., 721 F.3d 1133, 1136 (9th Cir. 2013).
Any waiver of sovereign immunity “will be strictly
construed, in terms of scope, in favor of the sovereign.”
Lane, 518 at 192. The waiver must be “clearly discernable from the statutory text in light of traditional
interpretive tools. If it is not, then we take the inter­
pretation most favorable to the Government.” F.A.A.
v. Cooper, 566 U.S. 284, 291 (2012). “A court lacks
subject matter jurisdiction over a claim against the
United States if it has not consented to be sued on
that claim,” and when the United States has consented
to suit, “the terms of its waiver of sovereign immunity
define the extent of the court’s jurisdiction.” Balser v.
Dep’t of Justice, Office of U.S. Tr., 327 F.3d 903, 907
(9th Cir. 2003) (internal citation and quotation marks
omitted). The burden of demonstrating a waiver of
sovereign immunity lies with the plaintiffs. Holloman
v. Watt, 708 F.2d 1399, 1401 (9th Cir. 1983).
ANALYSIS
Plaintiff alleges this Court has jurisdiction under
28 U.S.C. § 1331, 28 U.S.C. § 1346(a)(2) and 5 U.S.C.
§§ 701 et seq. Dkt. 1, at 2. As the Ninth Circuit has
held, § 1331 “cannot by itself be construed as consti­
tuting a waiver of the government’s defense of sovereign
immunity,” and therefore does not independently grant
the Court jurisdiction to hear Plaintiffs claim against
the federal government. Dunn & Black, PS. v. United
States, 492 F.3d 1084, 1088 n.3 (9th Cir. 2007); Black
Dog Outfitters, Inc. v. Idaho, No. 4:09-CV-00663-JI,

App.l3a
2010 WL 11469219, at *3 (D. Idaho 2010). Likewise,
since Plaintiff seeks “declaratory and injunctive relief
(Dkt. 1, at 9-10), and not monetary damages, his
citation of 28 U.S.C. § 1346(a)(2) is misguided. United
States v. Park Place Assocs., Ltd., 563 F.3d 907, 927
(9th Cir. 2009) (noting “[§ 1346(a)(2)]’s “jurisdictional
grant is limited to claims for money damages not
exceeding $10,000 in amount”). The Court therefore
must find the United States has waived sovereign
immunity under the APA, 5 U.S.C.§ 701 et seq, to
exercise subject matter jurisdiction over Plaintiffs claim
regarding IRS inaction under 26 U.S.C. § 7623(b).
The Court will grant Defendant’s Motion to Dis­
miss for Lack of Jurisdiction because Plaintiff has
not established that the APA’s sovereign immunity
waiver applies in this case. The Court lacks jurisdiction
under the APA because there is another appropriate
review proceeding under federal law. See 5 U.S.C.
§ 704. Although Plaintiff correctly notes that the
APA waives sovereign immunity, granting “a broad
spectrum of judicial review of agency action,” his
complaint does not show how the APA’s waiver of
sovereign immunity applies to his claims. See Dkt. 8,
at 13 (citing Bowen v. Massachusetts, 487 U.S. 879,
903 (1988)). Because § 7623 provides another review
proceeding and the APA excepts those claims from
federal court jurisdiction, the Court has no jurisdic­
tion to hear this case.
1.

The Court Lacks Subject Matter Jurisdiction
Because another Review Proceeding is Appropriate

To challenge federal agency action or inaction
under the APA, a Plaintiff must show a lack of
another adequate judicial remedy. Actions reviewable

App.l4a
under the APA must either be made reviewable by
statute or be “final agency action for which there is
no other adequate remedy in a court.” 5 U.S.C. § 704
(emphasis added). The statute at issue in this case,
26 U.S.C. § 7623 does not contain language about
APA review. Instead, § 7623 provides that: “[a]ny de­
termination regarding an award under paragraph (l),
(2), or (3) may, within 30 days of such determination,
be appealed to the Tax Court (and the Tax Court shall
have jurisdiction with respect to such matter).” 26
U.S.C. § 7623(b)(4). Plaintiffs claim concerning the
IRS’s failure to consider his Form 211, therefore, fails
to qualify as a “reviewable action” under § 704 of the
APA. Section 7623 provides a review mechanism in a
court of competent jurisdiction, and Plaintiff should
turn there. Because the challenged agency action does
not fall under the APA, Plaintiff has failed to show
the United States has waived its sovereign immunity
over this type of claim. Therefore, the Court has no
jurisdiction to hear his claims.
As the Supreme Court has noted., “Congress did
not intend the general grant of review in the APA to
duplicate existing procedures for review of agency
action.” Bowen, 487 U.S. at 903. Furthermore, the
Ninth Circuit has instructed that dismissal under Rule
12(b)(1) is appropriate if the underlying statute giving
rise to the APA challenge provides for another adequate
judicial remedy. See, e.g., City of Oakland v. Lynch,
798 F.3d 1159, 1162 (9th Cir. 2015) (upholding dismiss­
al under 12(b)(1)); see also S. California All ofPublicly
Owned Treatment Works v. United States Envtl Prot.
Agency, 297 F. Supp. 3d 1060, 1071 (E.D. Cal. 2018)
(finding lack of jurisdiction over an APA challenge
because there was another adequate judicial remedy

App.l5a
provided by the statute); Chun v. Dep’t of Treasury
Internal Revenue Serv., 2013 WL 12323966, at *3
(C.D. Cal. June 4, 2013) (same). Outside the Ninth
Circuit, other federal courts have consistently dismis­
sed attempts to challenge IRS inaction under § 7623
for lack of jurisdiction. See, e.g., Medinger v. Comm’r
ofInternal Revenue, 662 F. App’x 774, 776 (llth Cir.
2016); Amsinger v. United States, 99 Fed.Cl. 254,
258 (Fed. Cl. 2011); Dacosta v. United States, 82 Fed.
Cl. 549, 555 (2008). Plaintiff has not identified for the
Court any federal district court that has entertained a
challenge to IRS inaction under § 7623. The Court
finds it has no jurisdiction to hear Plaintiffs claims,
and grants Defendants’ Motion to Dismiss.
ORDER
In accordance with the Memorandum Decision
set forth above,
NOW THEREFORE IT IS HEREBY ORDERED,
that the motion to dismiss (docket no. 5) is GRANTED.
Is/ B. Lynn Winmill_____
U.S. District Court Judge
Dated: January 3, 2019

App.l6a
REGULATORY PROVISIONS INVOLVED
Public Law 109-432, Division A, Title IV, § 406
provides as follows:
SEC. 406. WHISTLEBLOWER REFORMS.
(a) AWARDS TO WHISTLEBLOWERS.—
(l) IN GENERAL.—Section 7623 (relating to
expenses of detection of underpayments and fraud,
etc.) is amended—
(A) by striking “The Secretary” and inserting
“(a) IN GENERAL.—The Secretary”,
(B) by striking “and” at the end of paragraph
(l) and inserting “or”,
(C) by striking “(other than interest)”, and
(D) by adding at the end the following new
subsection:
“(b) AWARDS TO WHISTLEBLOWERS.—
“(1) IN GENERAL.—If the Secretary pro­
ceeds with any administrative or judicial
action described in subsection (a) based on infor­
mation brought to the Secretary’s attention by an
individual, such individual shall, subject to para­
graph (2), receive as an award at least 15 percent
but not more than 30 percent of the collected
proceeds (including penalties, interest, additions
to tax, and additional amounts) resulting from the
action (including any related actions) or from
any settlement in response to such action. The
determination of the amount of such award by the
Whistleblower Office shall depend upon the extent

App.l7a
to which the individual substantially contributed
to such action.
“(2) AWARD IN CASE OF LESS SUBSTAN­
TIAL CONTRIBUTION.—
“(A) IN GENERAL.—In the event the
action described in paragraph (l) is one which
the Whistleblower Office determines to be
based principally on disclosures of specific
allegations (other than information provided
by the individual described in paragraph (l))
resulting from a judicial or administrative
hearing, from a governmental report, hearing,
audit, or investigation, or from the news
media, the Whistleblower Office may award
such sums as it considers appropriate, but in
no case more than 10 percent of the collected
proceeds (including penalties, interest, addi­
tions to tax, and additional amounts) resulting
from the action (including any related actions)
or from any settlement in response to such
action, taking into account the significance
of the individual’s information and the role of
such individual and any legal representative
of such individual in contributing to such
action.
(B) NON-APPLICATION OF PARA­
GRAPH WHERE INDIVIDUAL IS ORIGI­
NAL SOURCE OF INFORMATION.—
Subparagraph (A) shall not apply if the
information resulting in the initiation of the
action described in paragraph (l) was origi­
nally provided by the individual described
in paragraph (l).

App.l8a
“(3) REDUCTION IN OR DENIAL OF
AWARD.—If the Whistle-blower Office deter­
mines that the claim for an award under para­
graph (l) or (2) is brought by an individual who
planned and initiated the actions that led to the
underpayment of tax or actions described in
subsection (a)(2), then the Whistleblower Office
may appropriately reduce such award. If such
individual is convicted of criminal conduct arising
from the role described in the preceding sentence,
the Whistleblower Office shall deny any award.
“(4) APPEAL OF AWARD DETERMINA­
TION.—Any determination regarding an award
under paragraph (l), (2), or (3) may, within 30
days of such determination, be appealed to the
Tax Court (and the Tax Court shall have juris­
diction with respect to such matter).
“(5) APPLICATION OF THIS SUBSEC­
TION.—This subsection shall apply with respect
to any action—
“(A) against any taxpayer, but in the
case of any individual, only if such individ­
ual’s gross income exceeds $200,000 for any
taxable year subject to such action, and
“(B) if the tax, penalties, interest, addi­
tions to tax, and additional amounts in
dispute exceed $2,000,000.
“(6) ADDITIONAL RULES.—
“(A) NO CONTRACT NECESSARY.—
No contract with the Internal Revenue
Service is necessary for any individual to
receive an award under this subsection.

App.l9a
“(B) REPRESENTATION.—Any indi­
vidual described in paragraph (l) or (2) may
be represented by counsel.
“(C) SUBMISSION OF INFORMA­
TION.—No award may be made under this
subsection based on information submitted to
the Secretary unless such information is sub­
mitted under penalty of perjury.”.
(2) ASSIGNMENT
JUDGES.—

TO

SPECIAL

TRIAL

(A) IN GENERAL.—Section 7443A(b) (relating
to proceedings which may be assigned to special
trial judges) is amended by striking “and” at the
end of paragraph (5), by redesignating paragraph
(6) as paragraph (7), and by inserting after para­
graph (5) the following new paragraph:
“(6) any proceeding under section 7623(b)(4),
and”.

(B) CONFORMING AMENDMENT.—Section
7443A(c) is amended by striking “or (5)” and
inserting “(5), or (6)”.
(3) DEDUCTION ALLOWED WHETHER OR
NOT TAXPAYER ITEMIZES.—Subsection (a) of
section 62 (relating to general rule defining adjusted
gross income) is amended by inserting after para­
graph (20) the following new paragraph:
“(21) ATTORNEYS FEES RELATING TO
AWARDS TO WHISTLE BLOWERS.—Any deduc­
tion allowable under this chapter for attorney
fees and court costs paid by, or on behalf of, the
taxpayer in connection with any award under
section 7623(b) (relating to awards to whistleblow-

App.20a
ers). The preceding sentence shall not apply to
any deduction in excess of the amount includible
in the taxpayer’s gross income for the taxable
year on account of such award.”.
(b) WHISTLEBLOWER OFFICE.—
(l) IN GENERAL.—Not later than the date which
is 12 months after the date of the enactment of this
Act, the Secretary of the Treasury shall issue guidance
for the operation of a whistleblower program to be
administered in the Internal Revenue Service by an
office to be known as the “Whistleblower Office”
which—
(A) shall at all times operate at the direction of
the Commissioner of Internal Revenue and coor­
dinate and consult with other divisions in the
Internal Revenue Service as directed by the Com­
missioner of Internal Revenue,
(B) shall analyze information received from
any individual described in section 7623(b) of the
Internal Revenue Code of 1986 and either investi­
gate the matter itself or assign it to the appro­
priate Internal Revenue Service office, and
(C) in its sole discretion, may ask for additional
assistance from such individual or any legal
representative of such individual.
(2) REQUEST FOR ASSISTANCE.—The guidance
issued under paragraph (l) shall specify that any
assistance requested under paragraph (l)(C) shall be
under the direction and control of the Whistleblower
Office or the office assigned to investigate the matter
under paragraph (l)(A). No individual or legal repre­
sentative whose assistance is so requested may by

App.21a
reason of such request represent himself or herself as
an employee of the Federal Government.
(c) REPORT BY SECRETARY.—The Secretary of the
Treasury shall each year conduct a study and report
to Congress on the use of section 7623 of the Internal
Revenue Code of 1986, including—
(1) an analysis of the use of such section during
the preceding year and the results of such use,
and
(2) any legislative or administrative recommenda­
tions regarding the provisions of such section
and its application.
(d) EFFECTIVE DATE.—The amendments made by
subsection (a) shall apply to information provided on
or after the date of the enactment of this Act.
[Observations re Public Law 109-432. Division A. Title
IV, § 406—The subsection 406(a) reforms are encoded
as indicated at subsection 406(a), the subsection 406(b)
reforms are included in the “notes” section of 26
U.S.C. § 7623, and the subsection 406(c) reforms are
apparently not encoded.]

